Bellco Credit Union
Account Disclosure
Visa® Platinum Credit Card
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

9.50% to 21% based on creditworthiness.

APR for Balance Transfers

21%

APR for Cash Advances

21%

Penalty APR

None

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not
charge you any interest on purchases if you pay your entire balance by the due
date each month. We will begin charging interest on cash advances or balance
transfers on the transaction date.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit Card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

This APR will vary with the market based on the Prime Rate.

Fees
Annual Fee
Transaction Fees
Balance Transfer
Cash Advance

None

Either $10 or 4% of the amount of each balance transfer, whichever is greater
(maximum fee: $75)
Either $10 or 4% of the amount of each cash advance, whichever is greater
(maximum fee $75)
Up to 1% of each transaction in U.S. dollars.

Foreign Transaction
Penalty Fees
Late Payment
The lesser of minimum payment due or $25.
Returned Payment
$10.
Over the Limit Fee
None
How We Will Calculate Your Balance:

See
your account agreement for more details.
Expedite Delivery of Card: A fee of $45 may be charged for expedited delivery of a Card at the time of request.
Periodic Rates: After any Introductory Rate period, or if an Introductory rate does not apply to your Account, the periodic rate
for purchases will range from 0.0260% per day to 0.0576% per day which corresponds to an ANNUAL PERCENTAGE RATE
ranging from 9.50% to 21%. The periodic rate for cash advances is 0.0576% per day with a corresponding annual percentage
rate of 21%. Balance transfers will be considered a cash advance and will accrue interest like a cash advance. Balance transfers
will be referred to as cash advance for purposes of this disclosure.
Effective Date: This disclosure is effective as of April 1, 2020 and is subject to change after date listed.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account
agreement.

